          .    ..   a          .   r-z   .   "*& .,   .   o. uoi
                                                          ..       UA                           --.-   flI            gj UUX



DOE F 1325.8
(08.93)
United States Government                                                                     Department of Ene


memorandum
        DATE:            August 19,          2004                       Audit Report Number: OAS-L-04-18
   REPLY TO
    ATTN OF:             IG-36 (A03IF009)
   SUBJECT:              Audit of the "Revised Pit 9 Cleanup Project at the Idaho National Engineering and
                         Environmental Laboratory"

         TO:             Paul Golan, Acting Assistant Secretary, Office of Environmental Management

                         INTRODUCTION AND OBJECTIVE

                         The Idaho National Engineering and Environmental Laboratory's (iNEEL) subsurface
                         disposal area was established in 1952 for disposal of solid radioactive waste and now
                        encompasses an area of approximately 88 acres. Wastes from the INEEL and other
                        Department of Energy (Department) sites, rmost notably Rocky Flats, were buried in
                        the subsurface disposal area's pits, trenches and soil vaults. One of the pits, Pit 9, is a
                         1-acre site that was used to dispose of radioactive and hazardous waste, primarily
                        from Rocky Flats, between 1967 and 1969. Since that time, the public, the State of
                        Idaho, and the Department have become concerned that radioactive and hazardous
                        particles buried in the disposal area could migrate and contaminate the Snake River
                        Plain Aquifer.

                        The Department selected Pit 9 to demonstrate how the entire subsurface disposal area
                        could be cleaned up. After an unsuccessful attempt to privatize the cleanup of the
                        pit, the Department modified the strategy to involve a three-stage approach to the
                        cleanup of Pit 9: subsurface exploration using probes and core samples, pilot waste
                        retrieval demonstration, and complete remediation of Pit 9. Subsequently, to resolve
                        a dispute with regulators over progress and timing, the Department modified its
                        approach and began a project designed to demonstrate the ability to retrieve waste
                        from Pit 9. The objective of this review was to determine whether the demonstration
                        project successfully supports full-scale remediation and reduces environmental risk.

                        CONCLUSIONS AND OBSERVATIONS

                        While the Department completed the modified demonstration project, the effort did
                        not significantly advance its understanding of how to proceed with the remediation of
                        Pit 9. Specifically, the Glovebox Excavator Method (GEM) used to carry out the
                        demonstration project was not capable of supporting full-scale remediation or
                        significantly reducing environmental risks. The GEM project actually avoided
                        known radioactive "hot spots" in the pit and retrieved only 75 cubic yards of low-risk
                        waste and soil. In fact, the decontamination and demolition of the GBM facility will
                        result in more waste than was actually removed from Pit 9.
08/19/04   THU 15:33 FAX 423    241 3897            OIG                           -**j HI              141003




             On December 10, 2003, we briefed the Assistant Secretary for Environmental
             Management (EM) on the issues regarding the project and indicated that it may not
             be appropriate to expend the $29 million required to complete the GEM project.
             Despite the lack of cleanup or demonstration value to be gained by executing the
             project, the Department initiated operations on December 12, 2003, to satisfy
             agreements with regulators. When we issued a draft of our report on this matter on
             December 18, 2003, we recommended that EM engage regulators in a discussion of
             the merits of the demonstration project and suspend operations until a reevaluation of
             the project's cost and benefits could be performed. The Department, however, in its
             February 9, 2004 response to our draft, did not agree to suspend operations and the
             project was completed approximately 2 weeks later.

             Although we believe additional scrutiny of the merits of this project was warranted,
             we acknowledge that the Department tried to resolve disputes with its regulators over
             Pit 9 cleanup progress prior to proceeding with the GEM Project. Had the
             Department not agreed or suspended operation of the project, it would have been
             subjected to fines of up to $4 million. As the Department moves forward and refines
             approaches to remediating the entire subsurface disposal area, we suggest that
             retrieval or demonstration methods be evaluated to determine applicability across the
             entire disposal area. Based on the outcome of such evaluation, we suggest that the
             Department engage regulators to make needed changes to project direction.

             Since the Department concurred with similar suggestions in its February 9, 2004
             response to our former draft report, no future action or response is required.


             SCOPE AND METHODOLOGY

             The audit was performed from May 19, 2003 through November 19, 2003 at the
             Department's Idaho Operations Office in Idaho Falls, Idaho; and Bechtel Idaho
             BWXT, LLC in Idaho Falls, Idaho. The audit scope was limited to the GEM Project
             and Pit 9 cleanup actions taken from 1998 through 2003. To accomplish the audit,
             we obtained and reviewed regulatory and legal agreements applicable to the revised
             Pit 9 remediation plan; obtained and reviewed technical and budget planning
             documents for the GEM.Project; researched Federal and Departmental regulations;
             reviewed findings from prior audit reports regarding Pit 9; assessed internal controls
             and performance measures established under the Government Performance and
             Results Act of 1993; and, interviewed Idaho Operations Office and Bechtel personnel
             responsible for the GEM Project and Pit 9.

             The audit was performed in accordance with generally accepted Government auditing
             standards for performance audits and included tests of internal controls and
             compliance with laws and regulations to the extent necessary to satisfy the audit
             objective. Because our review was limited, it would not necessarily have disclosed
             all internal control deficiencies that may have existed at the time of our audit. Also,
             since we did not rely upon automated data processing equipment to accomplish our


                                                2
08/19/04   THU    15:33 FAX 423 241 3897               OIG                        -**                IUU4



                 audit objective, we did not conduct an assessment of the reliability of computer
                 processed data. We held an exit conference with Idaho Operations Office personnel
                 on February 26, 2004.

                 We appreciate the cooperation-of your staff during our review.




                                               Phillip. Holbrook, Director
                                              Environmental Audits Division
                                              Office of Inspector General




                 cc:   Director, Office of Nuclear Ehergy, Science and Technology
                       Manager, Idaho Operations Office




                                                  3.
UO/l•I/Uq         lfIU    10:J~4   'kAAJ 4Z..J   ~l.•   J   I    U44                            aiY
                                                                                                kU-.             ILJUUtU



DOEF 1325.8
(08-93)
United States Government                                                                  Department of Energy


memorandum
       DATE:             August    19,    2004

   REPLY TO
   ATTN OF:              IG-30 (A03IF009)

   SUBJECT:              Audit Report on "Revised Pit 9 Cleanup at the tIdaho National Engineering and
                         Environmental Laboratory."

            TO:          Team Leader, Audit Liaison Team (ME-2. 1)

                     Attached is the subject report. Since there are no recommendations, a Management
                     Decision is not required and the report does not need to be tracked in the Departmental
                     Audit Report Tracking System.

                     We appreciate your cooperation.




                                                                Phillip
                                                                   I    . Holbrook, Dir c or
                                                                Environmental Audits Division
                                                                Office of Inspector General




                    Attachments

                    cc: Assistant Secretary, Office of Environmental Management
                        Director, Office of Nuclear Energy, Science and Technology
                        Audit Liaison, Office of Environmental Management
08/19/04        THU 15:33 FAX 423 241 3897                OIG                           *--   HQ               l005

DOE F 1325.8
(08.93)
United States Government                                                             Department of Energy


memorandum
        DATE:      August 19,       2004
   REPLY TO
   ATTN OF:        IG-36 (A03IF009)

    SUBJECT:       Audit Report on "Revised Pit 9 Cleanup at the Idaho National Engineering and
                   Environmental Laboratory."

           TO:     Director for Performance Audits and Administration

                   Attached is the required final report package on the subject audit. The pertinent details
                   are:

                   1. Staff days:            Programmed   N/A            Actual   N/A
                       Elapsed days:         Programmed   386            Actual   458
                   2. Names of OIG audit staff:

                       Assistant Director:        Fredrick Pieper
                       Team Leader:               Jonathan Black
                       Auditor-in-Charge:         Jason Kirkham
                       Audit Staff:               Robert O'Keefe
                   3. Coordination with Investigations and Inspections:

                       The report was sent to Mike Matkowski, Office of Investigations, and Henry Minner,
                       Office of Inspections, on December 19, 2003. Their responses indicated that the
                       report would not affect any ongoing investigations or inspections.




                                                          Phi     Hobrook, irector
                                                          Environmental Audits Division
                                                           Office of Inspector General



                   Attaclhments:

                  1.   Final Report (2)
                  2.   Monetary Impact Report
                  3.   Audit Project Summary Report
                  4.   Audit Database Information Sheet
08/19/04     THU 15:34 FAX 423 241 3897                     OIG                                   -**- HQ                            0]007




                              MONETARY IMPACT OF REPORT NO.:                              oAS-V-04-18


       1. Title of Audit:      Revised Pit 9 Cleanup at the Idalo National Engineering and Environmental
                               Laboratory

       2. Division:            Environmental Audits Division

       3. Project No.:         A031F009

       4. Type of Audit: (Definitions and examples of audit types are found in Chapter 2 of the OIG
          Audit Manual.)

              Financial:                                          Performance:       X
                 Financial Statement                                Economy and Efficiency                      X
                 Financial Related                                  Program Results
              Other (specify type):

       5. Please report monetary savings identified in the report using applicable columns. Provide
          additional explanations of audited activities/locations in Section No. 6 - Remarks.

                                                                                                              MGT.       POTENTIAL
                FINDrNi            COST AVOIDANCE                     QU.STIONED COSTS                      POSITION      HUIX)ET
                                                                                                                          IMPACT
       (A)            (D)             (C)      (D)          (E)         (F)      (G)            (H)            (1)          (J)
                      Title           One    RCCurring   Questioned    Unsup-   Unrc-           Total      C-Concur        Y=Yes
                                      Time    Amount                   ported    isolvd     (.•+(l-)(G)    N=Nnncon        N-No
                                              PcrYear                                                       U-U___nduc
                                                                                                                N




       TOTALS--ALL FINDINGS                                                        --




       6. Remarks: The Department's Stage II demonstration project will not successfully demonstrate
          full-scale remediation and will not meaningfully reduce environmental risks. As a result, the
          Department will get little return for its $80 million investment.

       7. Contractor:                                    10. Approvals:
       8. Contract No.:                                  Division Director/Date:                           /pI,.
       9. Task Order No.:                                Technical Advisor & Date ..                  .A
  08/19/04          THU 15:34 FAX 423 241 3897                                                  OIG                                                         *     HQ                                oo00

                                                         Office of the Inspector General (OIG)
                                                    Audit Project Office Summary                                                             (APS)
                                                                                                                                                                                           Page 1
Report run on:                              August 19, 2004 4:42 PM


   Audit#: A03IF009                       Ofc:     IFA      Title: REVISED PIT 9 CLEANUP PLAN AT INEEL
                               .    . *;..
                                      . ................                                  ..      .......
                                                                                                       .                                     .I.                                  *

                                                           Planned                        End of Survey                          Revised                           Actual
                                                         ----------                       ---------------                       -----------                       -----------

   Entrance Conference:.....                             01-OCT-02                                                         19-MAY-03                            19-MAY-03
   Survey:..................                                                                                                04-AUG-03                           04-AUG-03
   Draft Report:.............                            15-OCT-03                                                          15-NOV-03                           18-DEC-03
   Completed (With Report):.                             31-DEC-03                             04-AUG-03                    08-JUN-04                           19-AUG-04             (R   )
   ------------            Elapsed Days:                           456                                        77                             386                       458
                                                                                                                                             Elap.        Less Susp:
   Date Suspended:                                                                  Date Terminated:
   Date Reactivated;                                                                Date Cancelled:
   DaysSuspended(Cur/Tot) :                                                       ) Report Number:                         OAS-L-04-18
  iRt     Title:                          Report Type:    LTR LETTER REPORT
   REVISED PIT 9 CLEANUP PROJECT AT THE IDAHO NATIONAL ENGINEERING AND ENVIRONMENTAL
   LABORATORY
                       ___                         ...          *••. Audcod                           a            Prb                i:.***              .....               .


  Class:    PER                    PERFORMANCE
  Program: EM                      Not Found
  MgtChall: 032                    ENVIRONMENTAL CLEANU
                                                                                                                    AD     49                PIEPER
   Site:              SSA          SINGLE-SITE AUDIT
                                                                                                                   AIC:    760               KIRKHAM
   SecMiss;          ENV           ENVIRONMENTAL QUALIT
                                                                                                      Team Ldr:            531               BLACK
   PresInit:                       Not Found                                                          Tech Adv:            544               ACTON

                                                           ..    .....    .. ."    ....         ,,. .j. ...         .t..   2".... :                                     _..


          Task No:
          Task Order Dt:                                                          CO Tech. Rep:
          Orig Auth Hrs:                                                          Orig Auth Costs:
          Current Auth;                                                           Current Auth Cost:
          Tot Actl IPR Hr:                                                        Tot Actl Cost;
                                   . . .. .....:::..
                                               ..    .......
                                                           ....
                                                           .                      :;.:..T.lm. ... C         g.                          ..           :.     .




                           DUDLEY,         M                               2.3                   28-JUN-03
                          SERRANO, S                                       4.1                   07-AUG-04
                          BLACK, J                                        31.0                   04-SEP-04
                          O'KEEFE, R                                      51.8                   09-AUG-03
                           KIRKHAM,          J                           166.0                   24-JUL-04
                               Total:                                    255.2
  08/19/04    THU 15:35 FAX 423 241 3897                               OIG                                  --       *   HQ                          [O1io

                                                Office of the Inspector General                 (OIG)
                                          Audit Project Office                        Summary    (APS)
                                                                                                                                               Page 2
Report run on:            August 19,                   2004 4:42 PM


                         .    ..                           :Keyword5
                                                        i ..:... :*       *     :,:ii                            .


                 GEM
                 GLOVEBOX EXCAVATOR METHOD
                 PIT 9
                 TRANSURANIC
                 TRU
                 WASTE RETRIEVAL


    Loo                                 **·*r     .Location Infoma tion.        :**
    code     DeBCrip'tion .                       .

    IDO      IDAHO OPERATIONS OFFICE
    INE      IDAHO NATIONAL LABORATORY


                                                ****Finding     .A
                                                                                                                              m ofoma.
                   F'l
                   *               ..                                  A"-m*.   :.Ti:tleY.      PtPOP   o                    ft
                                                                                                                         .. Amount       - .    ._Date
  08/19/04    THU 15:35 FAX 423 241 3897              OIG                     -U-4 HQ            0o11

                                   Office    of the Inspector General (OIG)
                               Audit Project Office Summary             (APS)
                                                                                        Page 3
Report run on:            August   19, 2004 4:42 PM




   udit No:    A03IF009                     History Date:   19-AUG-04
  History Text:
  PB/ ENTERED COMPLTED WITH REPORT DATE.
08/19/04   THU 15:34 FAX 423 241 3897              OIG                            *-.   HQ             [I008




                         AUDIT DATABASE INFORMATION SHEET

           1.    Project No.:   A03.F009

           2.    Title of Audit: Revised Pit 9 Cleanup at the Idaho National Engineering and
                 Environmental Laboratory

           3.    Report No./Date    OAS-V-04-18; August 19,        2004

           4.    Management Challenge Area: (032) Environmental Cleanup

           5.    Presidential Mgmt Initiative: None

           6.    Secretary Priority/Initiative: (ENV) Environmental Quality

           7.    Program Code: (EM) Environmental Management

           8.    Location/Sites: Idaho Operations Office

           9.    Finding Summary: The Department plans to spend almost $80 million on a
                 demonstration project that will clean up less than one percent of Pit 9 and
                 demonstrate a remediation technology that is unlikely to be used for ultimate
                 cleanup of the pit. Specifically, the GEM project, as currently configured, will
                 avoid known radioactive "hot spots" in the pit and retrieve only 75 cubic yards of
                 low-risk waste and soil. In addition, the Department has recognized that the
                 technology to be used in the demonstration project will not be practical for
                 cleaning up the entire pit. Despite the lack of cleanup or demonstration value to
                 be gained by executing the demonstration project, the Department intends to
                 proceed with the project to satisfy deadlines established by its regulators rather
                 than explore other alternatives with them. As a result; the Department's $80
                 million investment, including $29 million still to be spent, will not substantially
                 reduce environmental risks or accelerate cleanup of the subsurface disposal area.

           10.   Keywords: (include as many as you like)

                         Transuranic
                         TRU
                         Pit 9
                         GEM
                         Waste Retrieval
                         Glovebox Excavator Method
DOE F 1325.8
   (8-89)
EFG (07-90)

United State Government                                                         Department of Energy

memorandum
    DATE:      February 9, 2004
   REPLY
ATTN OF:       EM-21 (M. Frei, 301-903-7282)

SUBJECT:        Response to Inspector General Draft Report on "Revised Pit 9 Cleanup at the Idaho National
               Engineering and Environmental Laboratory"

 TO:           Frederick D. Doggett, Assistant Inspector General for Audit Services
               Office of the Inspector General, IG-32

               The Office of Environmental Management (EM) has reviewed the draft report on the
               subject audit that was transmitted by your December 18, 2003, memorandum. Your
               draft report recommends:

                  1. Suspension of operations;
                  2. Re-evaluation of the project mission to determine whether the scope of work
                     is appropriate for the desired outcome; and
                  3. Engagement of the regulators to change the direction of the project consistent with the
                     outcome of the re-evaluation.

                As your report indicates, the Glovebox Excavator Method (GEM) project was agreed to by
                Secretary of Energy Abraham, U.S. Environmental Protection Agency Administrator, and State
                of Idaho Governor Kempthorne in April 2002 ["Agreement to Resolve Disputes" (ARD)] as
                the path forward for the Pit 9 waste retrieval requirements. The project has completed the
                design, construction, and operational readiness review phases and is now excavating waste, and
                we are anticipating completing operations by March 2004.

                The GEM project is a subset of a larger cleanup issue at the Idaho National Engineering and
                Environmental Laboratory site, namely the entire 97 acre Subsurface Disposal Area (SDA) that
                contains numerous pits (including Pit 9) and trenches of buried waste. The ARD documents
                the role of this project in completing the Stage II portion of the Pit 9 project. The project does
                achieve the intent and objectives desired by the Department-and agreed to by the regulators via
                the April 2002 ARD and the remedial design, which has been reviewed by the regulatory
                agencies.

                Given the Regulatory Agreement and the status of the project, EM does not agree with
                Recommendation 1 of the draft report.

                The Department agrees with Recommendations 2 and 3. As noted above, the Department is
                continuing to discuss the Pit 9 project and the overall SDA cleanup project with the State and
                the EPA consistent with a risk-based approach. In addition, the Department has evaluated
                lessons learned from this project and is implementing corrective actions to significantly
improve future performance. A prime example is in the area of decontamination and
demolition. Future waste retrieval at the SDA will incorporate better waste minimization
techniques and a more simplified enclosure structure.

An attachment is included which provides our detailed comments on the draft letter and the
report to ensure accuracy and consistency.

If you have any questions, please contact me at (202) 586-7709 or Mr. Eugene Schmitt,
Deputy Assistant Secretary for Environmental Cleanup and Acceleration, at (202) 586-0755.




                                    Jessie Hill Roberson
                                    Assistant Secretary for
                                      Environmental Management

Attachment
                                 ATTACHMENT

           COMMENTS ADDRESSING REPORT INACCURACIES

1. The Implementing a Staged Approach paragraph of the draft report cites the 1998
   Explanation of Significant Differences (ESD). This document is no longer applicable to
   the GEM project. The 2002 ARD superceded the 1998 ESD. The regulators' agreement
   with this is documented in a September 25, 2003, Idaho Operations Office letter,
   EM-ER-03-246.

2. The fourth sentence in the same paragraph states the remediation of Pit 9 would
   be achieved by repetitive applications of the GEM project. This has never been
   an objective of the GEM project. The actual project objectives, as documented in
   the project plan and the remedial design, the latter of which was reviewed by the
   regulatory agencies, are: a) demonstrate waste retrieval, b) provide information on
   contaminants, c) characterize waste material for storage, and d) package and store
   waste onsite, pending decision on final disposition.

3. The third paragraph in the Glovebox Excavator Method section states the GEM
   project is limited by focusing on mature technologies, easier waste forms, and
   inefficient characterization methods. In fact, the use of mature technologies has
   been a very strong benefit for this project. With $2 million of potential fines
   attached to the March 31, 2004, start of excavation regulatory milestone, the use
   of new and emerging technologies was not a viable option. The GEM project is
   recovering easier to process sludges, but also will be excavating a potentially
   large amount of fissionable material.

4. The same paragraph states Pit 9 has already been characterized via probes and
   cores. In fact, no cores have ever been taken.

5. The paragraph under Actual Cleanup Performed again evaluates the GEM project
   against ESD objectives, which no longer apply, as discussed previously in 2).
   This section also states the GEM project is avoiding "hot spots." In fact, the
   GEM project was located specifically to retrieve material at the most interesting
   hot spot in the pit. Probe P9-20 indicates a potentially large amount of fissionable
   material, and this area will be excavated.

6. The third paragraph of Alternatives and Objectives says the ARD and its
   supporting documentation do not support the change in purpose for the GEM
   project. The supporting documentation to the ARD does specifically address the
   change implemented by the GEM project. Supporting documentation includes all
   Critical Decision documentation and the remedial design, all of which were
   reviewed by the regulators. The remedial design in particular went through a
   number of review cycles and the regulators agreed on the stated project objectives
   as addressed previously in 3).
7. The Return on Investment section states $29 million is yet to be spent on the
   project. As of January 5, 2004, when the project began excavating waste,
   $20 million remained in the project's budget. Completion of excavation
   operations is expected by mid-March 2004, with complete characterization data
   to be delivered shortly thereafter.
DOE F 1325.8
   (8-89)
 EFG (07-90)


United States Government                                                                          Department of Energy


memorandum
               DATE:   December 18, 2003
       REPLY TO:       IG-30 (A031F009)
       SUBJECT:        Draft Report on "Revised Pit 9 Cleanup Plan at the Idaho National Engineering and Environmental
                       Laboratory"
                 TO:   Assistant Secretary, Office of Environmental Management


                       Attached for your review and comment is a copy of our draft report on the subject audit.
                       The audit was performed at the Idaho Operations Office and Idaho National Engineering
                       and Environmental Laboratory. A copy of the related Monetary Impact of the finding is
                       also attached.

                       Please review the information in this draft and provide written comments within 15
                       working days on the facts presented, conclusions reached, appropriateness of the
                       recommendations, and reasonableness of the estimated potential monetary impact or other
                       benefits that may be realized. In order to facilitate the process of placing the audit report
                       on our website, please provide the Office of Inspector General (OIG) with an electronic
                       version of your comments. If you agree with the recommendations, please state the
                       corrective actions taken or planned and the actual or target dates for the actions. Your
                       comments should discuss alternative recommendations if you know of better ways to
                       solve the problems discussed in the report. .If you submit alternatives, please estimate the
                       potential benefits to be realized from these alternative actions.

                       The OIG will make every effort to include management's comments in their entirety in
                       the final report. Management should limit its comments to no more than two pages, with
                       more detailed comments addressed in an attachment. The OIG will review the comments
                       submitted by management and address relevant comments in the final report or revise the
                       report, if appropriate. The content of the final audit report is the responsibility of the
                       OIG.

                       This draft report is subject to change and does not represent the final position of the OIG.
                       Therefore, the contents shall be safeguarded at all times to prevent improper disclosure.
                       The draft report should not be provided to anyone outside the Department without the
                       express approval of the Inspector General. In this context, management and operating
                       contractors shall be considered to be part of the Department. DOE Order 221.3 states that
                       all copies of the draft report remain the property of the OIG and shall be returned on
                       demand.
                                           -2-


We will contact you shortly to arrange a meeting on the subject report. Your cooperation
will be greatly appreciated. If you have any quest' s, please contact Jonathan Black at
(208) 526-4209.


                                            Fred eric ~. Doggett
                                            Assistant Inspector General
                                              for Audit Services
                                            Office of Inspector General


Attachment

cc: Manager, Idaho Operations Office
    Team Leader, Audit Liaison Team, ME-1.1
    Audit Liaison, Office of Environmental Management
    Randal Scott, NE-ID
                                U.S. Department of Energy
                                Office of Inspector General
                              SOffice of Audit Services




         Draft Audit Report
i.'. '    evised ,it9 Cleanup Plan at the,.:                                                       .
         Idaho. National: Engineerin
         E"nvronmental tab0irat


                                                                ,
             "         .....
                         m              3                       ;      -        .   S•   -   £'g
                 .to     ..                                                .y


                                                          S,   ,. ..                *                  ... ..-..
                                             DRAFT




MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Revised Pit 9 Cleanup Plan at the
                         Idaho National Engineering and Environmental Laboratory"


BACKGROUND

The Idaho National Engineering and Environmental Laboratory's (INEEL) subsurface disposal
area was established in 1952 for disposal of solid radioactive waste and now encompasses an
area of approximately 88 acres. Wastes from the INEEL and other Department of Energy sites,
most notably Rocky Flats, were buried in the subsurface disposal area's pits, trenches and soil
vaults. One of the pits, Pit 9, is a 1-acre site that was used to dispose of radioactive and
hazardous waste primarily from Rocky Flats between 1967 and 1969. Since that time, the
public, the State of Idaho, and the Department have become concerned that radioactive and
hazardous particles buried in the disposal area could migrate and contaminate the Snake River
Plain Aquifer.

The Department selected Pit 9 to demonstrate how the entire subsurface disposal area could be
cleaned up. After an unsuccessful attempt to privatize the cleanup of the pit, the Department's
current strategy involves a three-stage approach to the clean-up of Pit 9: subsurface exploration
using probes and core samples, pilot waste retrieval demonstration, and complete remediation of
Pit 9. The Department has completed the exploration stage and is currently pursuing the
demonstration project by using what it refers to as the Glovebox Excavator Method (GEM). The
demonstration phase of the project is estimated to cost $80 million and was intended to prove a
technology that could be used to complete remediation of Pit 9. Based on this information, the
objective of our audit was to determine whether the demonstration project for Pit 9 will
successfully support full-scale remediation and reduce environmental risk.

RESULTS OF AUDIT

The Department plans to spend almost $80 million on a demonstration project that will clean up
less than one percent of Pit 9 and demonstrate a remediation technology that is unlikely to be
used for ultimate cleanup of the pit. Specifically, the GEM project, as currently-configured, will
avoid known radioactive "hot spots" in the pit and retrieve only 75 cubic yards of low-risk waste
and soil. In addition, the Department has recognized that the technology to be used in the
demonstration project will not be practical for cleaning up the entire pit. Despite the lack of
cleanup or demonstration value to be gained by executing the demonstration project, the
Department intends to proceed with the project to satisfy deadlines established by its regulators
rather than explore other alternatives with them. As a result, the Department's $80 million
                                             DRAFT


investment, including $29 million still to be spent, will not substantially reduce environmental
risks or accelerate cleanup of the subsurface disposal area.

We recommended that the Assistant Secretary for Environmental Management engage the
regulators in a discussion of the current pilot project and suspend operations until a re-evaluation
of the project's cost and benefits can be performed. We believe that our recommendations are
consistent with the accelerated, risk-based approach to cleanup activities outlined in the Office of
Environmental Management's 2002 Top to Bottom Review. That review identified obstacles to
achieving cleanup that reduces risk to human health and the environment as quickly as possible,
including interpretation of cleanup agreements.

MANAGEMENT REACTION

To be added.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Director, Office of Nuclear Energy, Science and Technology
    Manager, Idaho Operations Office
                                                                DRAFT



REVISED PIT 9 CLEANUP PLAN AT THE IDAHO NATIONAL ENGINEERING AND
ENVIRONMENTAL LABORATORY


TABLE OF CONTENTS


Pit 9 Retrieval Demonstration Proiect

D etails of Finding ...............................................................    ................................................   1

Recomm endations and Comm ents..........................................................................................                  4


Appendices

Prior Report.....................................................................................................        . .............. 5

Objective, Scope, and M ethodology........................................                 .................. .........................   6.
                                                DRAFT


                   PIT 9 RETRIEVAL DEMONSTRATION PROJECT


Implementing a Staged Approach

In accordance with the 1998 Explanation of Significant Differences' for Pit 9, the
Department is pursuing a three-stage approach to achieving remediation of the entire pit.
Under this approach, the Department would conduct a pilot project to demonstrate waste
retrieval and characterization practices that could eventually be implemented on a full-
scale basis. This process is consistent with the National Research Council's most recent
report on the Department's project management, Progressin Improving Project
Management at the DepartmentofEnergy, 2002 Assessment, which strongly
recommends pilot scale demonstrations for large, first-of-a-kind projects. Accordingly,
the Department anticipated that complete remediation of Pit 9 could be accomplished by
subsequent, repetitive applications of the retrieval process used in the demonstration
project. In 2001, the Department evaluated alternatives and selected the Glovebox
Excavator Method (GEM) to achieve the second stage of the approach outlined in the
Explanation of Significant Differences.


Glovebox Excavator Method

The Department plans to spend $80 million on the GEM project, which has virtually no
"demonstration" value and will clean up less than one percent of Pit 9.

                                     Demonstration Value of Project

Remediation of the entire pit through deployment of the GEM technology is highly
unlikely. The intent of the demonstration was to prove a technology that, by subsequent,
repetitive applications, could accomplish the remediation of the entire pit. However,
according to documents detailing the technical and functional requirements of the GEM
project, the retrieval demonstration will be sited at one Pit 9 location, and the facilities
and equipment will not be designed in a manner that allows them to be moved for use at
other locations within or outside of Pit 9. The Department recognized the limitations of
this technology and recently began consideration of other processes to clean up the rest of
the pit. In September 2003, the Department approved the mission need for full
remediation of Pit 9 and concluded that, based on knowledge gained from
characterization activities, the demonstration project, and other sources, Pit 9 requires a
new retrieval approach.

In addition, other information or value that may be gained by implementing the GEM
project is limited because the project focuses on mature technologies, easier waste forms,
and inefficient characterization methods. Program management stated that the GEM

SAn Explanation of Significant Differences is prepared by the lead agency when differences in the scope,
performance, or cost of a remedy identified in the Record of Decision occur but do not fundamentally alter
the remedy selected.


                                                     1
                                          DRAFT


project will demonstrate waste separation techniques whereby waste can be sorted in a
glovebox. However, manipulating and handling radioactive and hazardous material using
a glovebox is a mature process. The Department also stated that the GEM project would
demonstrate that an excavator can be used to dig in radioactive waste pits such as.Pit 9.
Yet, using an excavator to retrieve waste from pits and trenches is not new. In fact, the
Department used excavators in the INEEL's pits in order to perform waste condition
assessment surveys on several occasions during the 1970s. The results of those
excavations are readily available. Using the results of probing and core samples
conducted during the exploration stage, the Department selected the location within Pit 9
for the demonstration project, avoiding the more technically complex areas of the pit.
Despite the lack of task complexity, the Department believes that the project is still useful
in that it will help determine contamination levels in the surrounding soils. However,
determining the nature and extent of contamination in the pit has already been performed
by using probes and core sampling during the subsurface area exploration stage.

                                Actual Cleanup Performed

The GEM project, as currently designed, will retrieve only 75 cubic yards of low-risk
waste and surrounding soil. This is less than half of the 200 cubic yards agreed upon in
the 1998 Explanation of Significant Differences for the demonstration project and less
than 1 percent of the 18,500 cubic yards of waste and surrounding soils that must
ultimately be retrieved from Pit 9. The value of the project has also been diminished
because the GEM project, as currently configured, will avoid known "hot spots" in the pit
where complex waste -- such as disintegrated filters that represent the highest possibility
of criticality -- was placed, and will focus instead on easier waste forms such as sludge
and debris. Further, the decontamination and decommissioning of the facility constructed
to carryout the project will generate nearly as much transuranic waste as the project will
retrieve from the pit. According to the Department's own estimates, the decontamination
and decommissioning process will generate an estimated 74 cubic yards of transuranic
waste - approximately 1 cubic yard less than the amount of waste to be retrieved. In
addition, the project could generate as much as 175 cubic yards of low-level and mixed
low-level waste.


Alternatives and Objectives

The Department did not re-evaluate alternatives once it knew that the GEM project could
not be used to remediate the entire pit. Despite the lack of cleanup or demonstration
value to be gained by executing the demonstration project, the Department intends to
proceed with the project to satisfy deadlines established by its regulators. Specifically,
even though the Department recognized that it is not practical to use the GEM approach
as a means to remediate the entire pit, the Department intends to comply with the
March 31, 2004 "start of operations" milestone.

Previously, in April 2000, the Department sent a letter to the Environmental Protection
Agency (EPA) and the State of Idaho requesting to renegotiate the work plans and



                                             2
                                          DRAFT

deadlines for the Pit 9 remediation. The EPA and State of Idaho were unwilling to
renegotiate the work plans, and the Department was compelled to agree to current
milestones set in the Agreement to Resolve Disputes in April 2002. However, the GEM
project's utility in the overall remediation plan has changed considerably since April 2002
and warrants further review before the project proceeds.

During our review, senior management informed us that when the Agreement to Resolve
Disputes was signed, the previous project goals were superceded and were no longer
applicable to the second stage of the Pit 9 project. Management also stated that the focus
of the GEM project became primarily to retrieve waste for characterization purposes
rather than to use it as a pilot project to support full remediation of the entire pit. While
the Department may have changed its focus at this point, the Agreement to Resolve
Disputes and related correspondence do not specifically address this change. Rather, they
focus on resolving matters related to the Department's request for extension of deadlines
on the project and support the continuing need for a demonstration project. For example,
in July 2000, the EPA stated that, "... it is important to complete the Pit 9 Stage II
retrieval project to provide a defensible evaluation and cost basis for cleaning up the
[Radioactive Waste Management Complex]." Further, the State of Idaho recognized that
approaches like the pilot project, "...have the potential for tremendous savings in overall
remediation costs of retrieval of the buried waste in the [subsurface disposal area]."

Also, management stated that an additional value of the GEM project is to demonstrate
that the Department is willing and able to retrieve the waste in a safe manner. For years,
there has been a public perception that the waste in Pit 9 is among the most dangerous
waste in the Department. In reality, a majority of the waste is very similar to other
transuranic waste in the Department, and the GEM project will allow the Department to
demonstrate that it can be cleaned up. Further, .several milestones for the remediation of
Pit 9 have not been met in the past, requiring the Department to pay fines and renegotiate
new milestones. By carrying out the GEM project as planned, the Department intends to
show its willingness to comply with existing agreements. However, pursuing an
alternative demonstration project could satisfy many of these same objectives and have a
greater impact on the ultimate clean up of the subsurface disposal area.


Return on Investment

The Department's almost $80 million investment, including $29 million still to be spent,
will not substantially reduce environmental risks or accelerate cleanup of the subsurface
disposal area. As of September 2003, the Department had spent $50 million in capital
costs on the GEM project. In December 2003, the GEM project began operations to
remove the three foot thick overburden covering the waste. Retrieval of contaminated
waste is not anticipated to occur until mid-January. Once the Department reaches the
contaminated portion of the pit, the equipment will require decontamination or disposal
as transuranic and low-level waste. If the Department continues with the operational
phase of the project, it will spend an additional $29 million to demonstrate a technology
with little value.



                                              3
                                          DRAFT



It should be noted that if the March 2004 milestone is not met, the Department risks
forfeiting $4 million in fines to the State of Idaho, and an additional $520,000 in fines per
year. While the potential fines are significant, they are relatively minor compared to
spending $29 million for a pilot project that will not reduce the environmental risks
associated with Pit 9 or provide a path forward for ultimate cleanup of the pit.


RECOMMENDATIONS

We recommend that the Assistant Secretary for Environmental Management:

    1. Suspend operations of the GEM project;

   2. Re-evaluate the project's mission to determine whether the scope of work is
      appropriate for the desired outcome; and,

   3. Engage the regulators in discussion to change the direction of the project
      consistent with the results of the re-evaluation.



MANAGEMENT REACTION AND AUDITOR COMMENTS

To be added.




                                             4
                                         DRAFT


                                      APPENDIX 1


                                    PRIOR REPORT

DepartmentofEnergy's Projectto Clean Up Pit 9 at Idaho Falls is Experiencing
Problems (GAO/RCED-97-180,July 1997). The Department chose a fixed-price
approach for the Pit 9 project because management believed a fixed price would help
limit the project's total cost and provide an incentive for contractors to use efficient
practices in carrying out the cleanup by shifting the risk of nonperformance to the
contractors. However, according to the General Accounting Office, the Pit 9 project, as
originally conceived, was clearly a failure. It simply could not be completed in the time
frame or within the price agreed to by the subcontractor.




                                            5
                                         DRAFT


                                      APPENDIX 2


                   OBJECTIVE, SCOPE, AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the demonstration project for Pit 9
will successfully support full-scale remediation and reduce environmental risk.

SCOPE

The audit was performed from May 19, 2003, to November 19, 2003, at the Idaho
Operations Office and Bechtel BWXT Idaho, LLC (Bechtel) in Idaho Falls, Idaho. The
audit scope was limited to the Glovebox Excavator Method (GEM) Project and Pit 9
cleanup actions taken from Fiscal Years 1998 through 2003.

METHODOLOGY

To accomplish the audit objective, we:

 * Obtained and reviewed regulatory and legal agreements applicable to the revised Pit 9
   remediation plan;

 * Obtained and reviewed technical and budget planning documents for the GEM
   Project;

 * Researched Federal and Departmental regulations;

 * Reviewed findings from prior audit reports regarding Pit 9;

 * Assessed internal controls and performance measures established under the
   Government Performance and Results Act of 1993; and,

 * Interviewed Idaho Operations Office and Bechtel personnel responsible for the GEM
   Project and Pit 9.

The audit was performed in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objective.
Specifically, we tested controls with respect to the Department's planning process for
waste management activities. Because our review was limited, it would not necessarily
have disclosed all internal control deficiencies that may have existed at the time of our
audit. We did not rely on automated data processing equipment to accomplish our audit
objective.



                                            6
                                            MONETARY IMPACT REPORT

                         MONETARY IMPACT OF REPORT NO.:


1. Title of Audit:            Revised Pit 9 Cleanup Plan at the Idaho National Engineering and
                              Environmental Laboratory

2. Division:                  Environmental Audit Division

3. Project No.:               A03IF009

4. Type of Audit: (Definitions and examples of audit types are found in Chapter 2 of the OIG
Audit Manual.)

       Financial:                                                           Performance:       X
         Financial Statement                                                  Economy and Efficiency                X
         Financial Related                                                    Program Results
       Other (specify type):

5. Please report monetary savings identified in the report using applicable columns. Provide
additional explanations of audited activities/locations in Section No. 6 - Remarks.

                                                                                                                   MGT.     POTENTIAL
          FINDING                   COST AVOIDANCE                              QUESTIONED COSTS                 POSITION    BUDGET
                                                                                                                             IMPACT
(A)              (B)                 (C)            (D)               (E)        (F)        (G)        (H)          (I)        (J)
                 Title              One          Recurring         Questioned   Unsup-    Unre-       Total      C=Concur     Y=Yes
                                    Time          Amount                        ported    solved   (E)+(F)+(G)   N=Noncon     N=No
                                                  PerYear                                                         U=Undec
      Pit 9 Retreival               $24 M
      Demonstration Project



TOTALS--ALL FINDINGS                $24 M                    ___




6. Remarks: The Department's Stage II demonstration project will not successfully demonstrate
full-scale remediation and will not meaningfully reduce environmental risks. As a result, the
Department will get little return for its investment. While the Department has already spent
$50 million for the facility, it could save $29 million, less $5 million in State of Idaho fines and
penalties, by terminating the GEM project.

7. Contractor:                                                      10. Approvals:
8. Contract No.:                _           _                       Division Director/Date:
9. Task Order No.:                  _Technical                                Advisor & Date
